                                                       Appendix III




Assessment of SEC’s System and
Network Logs




                                                           March 16, 2012
                                                           Report No. 500

Assessment and Review Conducted by C5i Federal, Inc.

                         REDACTED PUBLIC VERSION
                                                 UNITED STATES

                             SECURITIES AND EXCHANGE COMMISSION
                                         WASHINGTON, D.C.      20549




INSPECTO" GENERAl




                                       MEMORANDUM

                                                 March 16, 2012


          To:              Thomas A. Sayer, Chief Information Officer. Office of Information



                                             �
                             Technology (OIT)

           From:           Noelle Maloney.   c     Inspector General, Office of Inspector
                             General (OIG)


          Subject:         Assessment of SE      s System and Networ/{ Logs, Report No. 500

           This memorandum transmits the U.S. Securities and Ey.r�hange Commission OIG's
           final report detailing the results on our assessment of SEC's system and network
          logs. This review was conducted as part of our continu<..'us effort to assess
          management of the Commission's programs and operations and as a part of our
          annual audit plan.


           The final report contains eight recommendations which if fully implemented should
           strengthen OIT's controls over the Commission's system and network logs. OIT
           concurred with all the recommendations. Your written response to the draft report is
           included in Appendix VI.

          Within the next 45 days, please provide the OIG with a written corrective action plan
           that is designed to address the recommendations. The corrective action plan should
           include information such as the responsible official/pojn� of contact, timeframes for
           completing required actions, and milestones identifying how you will address the
           recommendations.

           Should you have any questions regarding this report, p(!:<lse do not hesitate to
           contact me. We appreciate the courtesy and cooperation thai you and your staff
           extended to our audit staff and contractors.


          Attachment

           cc:      James R. Burns, Deputy Chief of Siaff, Office of the Chairman
                    Luis A. Aguilar, Commissioner
                    Troy A. Paredes, Commissioner
                    Elisse 8. Walter, Commissioner
                    Daniel M. Gallagher, Commissioner
                    Jeff Heslop, Chief Operating Officer, Office of Chief of Operations
                    Todd Scharf, Chief Information Security Officer. Office of Information
                     Technology




        Assessment of SEC’s System and Network Logs                                      March 16, 2012
        Report No. 500
                                                Page i
                                       REDACTED PUBLIC VERSION
Assessment of SEC’s System and
Network Logs

                              Executive Summary
Background. In August 2010, the U.S. Securities and Exchange Commission
(SEC or Commission) Office of Inspector General (OIG) contracted with C5i
Federal, Inc. (C5i) to assist with the completion and coordination of OIG’s input to
the Commission’s response to the Office of Management and Budget (OMB)
Memorandum M-10-15, FY 2010 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management. 1 The
response was completed and submitted to OMB in November 2010 and reported
on by the OIG in its report, 2010 Annual FISMA Executive Summary Report. 2 As
part of its work, C5i conducted an assessment and review of the SEC’s
continuous monitoring of information technology operations audit logs, and the
OIG documented the results of the assessment report Assessment of SEC’s
Continuous Monitoring Program. 3 During its assessment of the SEC’s
continuous monitoring program, C5i found—based on its review of a judgmental
sample number of                                logs and                     server
logs—that the SEC Office of Information Technology (OIT) was capturing user
identification and log-in/log-out times on
                                     However, C5i was unable to verify whether all
log settings and user activities were being captured for all servers. As a result,
on May 17, 2011, the OIG modified its contract with C5i to conduct an in-depth
technical assessment of a sample of the
                                   located within the SEC’s enterprise network, 4 to
determine whether audit log data were being captured consistent with the
requirements of the Federal Information Security Management Act (FISMA),
Federal Information Processing Standards (FIPS), and the National Institute of
Standards and Technology (NIST) guidelines.

Objectives. The overall objective of this review was to independently evaluate
and report on how the Commission has implemented information security
requirements for audit log management, including the generation, review,
protection, and retention of audit logs. An additional objective was to review
system and network logs in the SEC enterprise network, access controls to logs,
controls over log management and analysis, data log collection, and log storage.

1
  Office of Management and Budget, Memorandum 10-15, FY 2010 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management,
http://www.whitehouse.gov/sites/default/files/omb/assets/memoranda_2010/m10-15.pdf.
2
  OIG, 2010 Annual FISMA Executive Summary Report, Report No. 489 (Mar. 3, 2011).
3
  OIG, Assessment of SEC’s Continuous Monitoring Program, Report No. 497 (Aug. 11, 2011).
4
  The sample includes SEC’s operations center, headquarters and the regional offices.
Assessment of SEC’s System and Network Logs                                       March 16, 2012
Report No. 500
                                      Page ii
                              REDACTED PUBLIC VERSION
Results. C5i’s technical assessment of SEC’s system and network logs found
that audit log events were not captured for all                   servers. C5i’s
review consisted of comparing server logs collected by the OIG in February 2011
with logs that were collected in June 2011, as well as reviewing additional
servers that were located in the SEC’s Enterprise network. Specifically,
servers in C5i’s judgmental sample did not log auditable events because the
server’s logging capacity had been exceeded. Also, there is no mechanism in
place to alert OIT’s Servers and Storage Branch or OIT’s Security Branch when
servers have reached their capacity and stopped performing logging functions.
C5i found that the OIT Servers and Storage Branch did not actively monitor
server logs and did not have an alerting mechanism to provide notification of
when a sever was no longer logging events. Although OIT’s Security Branch
monitors logs, an alerting mechanism does not exist. Both the OIT Servers and
Storage Branch and the OIT Security Branch were unaware that the three
servers were not logging events.

C5i also found that OIT’s policies and procedures for audit log capture and
management were outdated and do not clearly define required components such
as roles and responsibilities. C5i reviewed five formal, documented policies and
procedures specific to audit log capture and management. C5i found that only
one of these policies was current and the other policies had not been reviewed or
updated based on the “anticipated review date” identified in each policy. In
addition, C5i found that OIT does not have documented policies and procedures
for application database log management. Further, our review of log capture and
log management (including capacity planning and identification of roles and
responsibilities of persons involved in log management) found that OIT does not
have documented policies and procedures for reviewing server logs to ensure
that log capacity has not been exceeded or for alerting OIT officials when the
capacity is exceeded. In previously-issued reports the OIG found that OIT’s
security policies and procedures were outdated but none of the policies and
procedures were related specifically to logs. OIT is aware that the vast majority
of their policies and procedures are outdated and has taken action to address
this matter.

Additionally, C5i found         servers identified as decommissioned were still
actively connected to the SEC’s Enterprise networks and were still accessible.
Further, C5i found that one of the servers had stopped performing logging
functions. Decommissioned servers remained accessible on the SEC network
and, of those examined, one was not capturing logs.

Also, C5i found that logs are not generated consistently for application databases
because the audit trail functionality that is built into the database is not always
available, which has resulted in OIT not being able to capture logs for all
auditable events. OIT informed C5i that resources have now been dedicated to
address this matter.

Assessment of SEC’s System and Network Logs                        March 16, 2012
Report No. 500
                                 Page iii
                         REDACTED PUBLIC VERSION
Lastly, OIT’s Servers and Storage Branch and OIT’s Security Branch do not have
an alerting mechanism to notify appropriate personnel when
are full or have stop performing logging functions. Although OIT does not have
an alerting mechanism to notify it when logs are no longer performing logging
functions, OIT informed C5i that the office plans to deploy a tool that will provide
OIT with this capability in the near future.

Summary of Recommendations. We recommend OIT take the following
actions to enhance the SEC’s system and network logs.

     (1) OIT should identify capacity requirements for all servers, ensure
         sufficient capacity is available for the storage of audit records,
         configure auditing to reduce the likelihood that capacity will be
         exceeded, and implement an alerting mechanism to alert and notify
         appropriate office/divisions when log storage capacity is reached.

     (2) When updating its policies and procedures, OIT should include log
         management language that

              •   Identifies the roles and responsibilities of staff who are
                  involved in log management,
              •   requires server logs to be periodically reviewed to check
                  whether log capacity has been exceeded, and
              •   requires appropriate OIT officials be notified when audit
                  logging functions are suspended when log storage
                  capacity has reached its limit.

     (3) OIT should review and update all logging policies and procedures
         consistent with the policy’s review interval requirements and retain
         evidence of its reviews and any updates to the policy.

     (4) OIT should ensure that all servers connected to the Commission’s
         enterprise network are configured to have logging enabled.

     (5) OIT should update Server Decommission Guidelines and include
         language to fully document each action that should be performed when
         decommissioning a server. OIT should also develop a server
         decommissioning checklist to be included in the Server Decommission
         Guidelines.

     (6) OIT should conduct a review of application database log management
         and generation procedures to ensure audit events are being captured
         and retained, consistent with OIT policies and procedures and National
         Institute of Standards and Technology guidelines.

Assessment of SEC’s System and Network Logs                         March 16, 2012
Report No. 500
                                 Page iv
                         REDACTED PUBLIC VERSION
     (7)   OIT should implement a mechanism to notify OIT’s Server and
           Storage Branch, or OIT’s Security Branch when
           stop performing        functions.

     (8)   OIT should implement its plan to develop a computer script that
           determines whether                     are producing

The full version of this report includes information that the SEC considers to be
sensitive and proprietary. To create this public version of the report, OIG
redacted (blacked out) potentially sensitive, proprietary information from the
report.




Assessment of SEC’s System and Network Logs                        March 16, 2012
Report No. 500
                                 Page v
                         REDACTED PUBLIC VERSION
TABLE OF CONTENTS
Executive Summary ...................................................................................................... ii

Table of Contents ........................................................................................................ vi

Background and Objectives .......................................................................................... 1
      Background ....................................................................................................... 1
      Objectives .......................................................................................................... 2

Findings and Recommendations .............................................................................. 3
      Finding 1: Audit Log Events Are Not Being Captured for All
                Servers .............................................................................................. 3
                   Recommendation 1....................................................................... 9

         Finding 2: OIT Audit Logging Policies and Procedures for SEC Network
         Servers Should be Revised and Reviewed According to Its Current Policy ..... 10
                      Recommendation 2..................................................................... 12
                      Recommendation 3..................................................................... 12

         Finding 3: Decommissioned Servers Remain Active on the SEC Network ..... 13
                      Recommendation 4..................................................................... 14
                      Recommendation 5..................................................................... 14

         Finding 4: Application Database Logs Are Not Generated. ............................. 15
                      Recommendation 6..................................................................... 15

         Finding 5: OIT Does Not Have a Monitoring and Alerting Mechanism for
                           Failure. .............................................................................. 16
                      Recommendation 7..................................................................... 17
                      Recommendation 8..................................................................... 17

Appendices
    Appendix I. Abbreviations................................................................................ 18
    Appendix II. Scope and Methodology .............................................................. 19
    Appendix III. Criteria ........................................................................................ 22
    Appendix IV. Screenshots ............................................................................... 23
    Appendix V. List of Recommendations .......................................................... 28
    Appendix VI. Management’s Comments ......................................................... 30
    Appendix VII. OIG Response to Management’s Comments............................. 33




Assessment of SEC’s System and Network Logs                                                    March 16, 2012
Report No. 500
                                           Page vi
                                   REDACTED PUBLIC VERSION
Tables
     Table 1. Servers Eliminated from Initial Judgmental Sample ............................ 4
     Table 2. Sampled Servers Not Capturing Logs ................................................. 5
     Table 3. Servers Eliminated from Additional Judgmental Sample Used in
             Log Comparison .................................................................................. 6
     Table 4. Server From Additional Judgmental Sample Not Performing
             Logging Functions ...... ......................................................................... 7

Figures
     Figure 1.
             Log, October 17, 2011 ........................................................................ 23
     Figure 2.                                                                          , Verified
               June 18, 2011 ................................................................................. 23
     Figure 3.                                                                          , Verified
               June 18, 2011 ................................................................................. 24
     Figure 4.                                                                        Verified
               June 18, 2011 ................................................................................. 25
     Figure 5.
                             Verified June 18, 2011 ............................................... 26
     Figure 6.
               Verified June 18, 2011 .................................................................... 27




Assessment of SEC’s System and Network Logs                                          March 16, 2012
Report No. 500
                                       Page vii
                               REDACTED PUBLIC VERSION
                   Background and Objectives
Background
Overview. In August 2010, the U.S. Securities and Exchange Commission (SEC
or Commission) Office of Inspector General (OIG) contracted with C5i Federal,
Inc. (C5i) to assist with the completion and coordination of OIG’s input to the
Commission’s response to Office of Management and Budget (OMB)
Memorandum M-10-15, FY 2010 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management. 5 The
response was completed and submitted to OMB in November 2010 and reported
on by the OIG in the report 2010 Annual FISMA Executive Summary Report. 6 As
part of its work, C5i conducted an assessment and review of the SEC’s
continuous monitoring of information technology operations audit logs, and the
results of the assessment were documented by the OIG in the report
Assessment of SEC’s Continuous Monitoring Program. 7

During its assessment of the SEC’s continuous monitoring program, C5i found—
based on its review of a judgmental sample number of
logs and                        server logs—that the SEC Office of Information
Technology (OIT) was capturing user identification and log-in/log-out times on
                                                                     However,
without conducting a more in-depth analysis, C5i was unable to verify whether all
log settings and user activities were being captured for all servers. To assist the
OIG in conducting an in-depth assessment of logs, on February 2, 2011, at the
OIG’s request, OIT collected and provided a hard drive with audit log records
from all OIT
that were generated from January 4, 2010 to January 30, 2011.

Because OIG was unable to verify log settings and user activities in the log
records OIT provided on February 2, 2011, OIG modified its contract with C5i on
May 17, 2011, to include a detailed technical assessment on a sample number of
the                                                                       that are
located within the SEC’s enterprise network, to determine whether audit log data
was being captured consistent with the requirements of the Federal Information
Security Management Act (FISMA), Federal Information Processing Standards
(FIPS), and the National Institute of Standards and Technology (NIST)
guidelines. In addition, the modification to the contract included a comparison of
the network logs OIG collected on June 24, 2011, covering the period February
5
  Office of Management and Budget, Memorandum 10-15, FY 2010 Reporting Instructions for the Federal
Information Security Management Act and Agency Privacy Management,
http://www.whitehouse.gov/sites/default/files/omb/assets/memoranda_2010/m10-15.pdf.
6
  OIG, 2010 Annual FISMA Executive Summary Report, Report No. 489 (Mar. 3, 2011).
7
  OIG, Assessment of SEC’s Continuous Monitoring Program, Report No. 497 (Aug. 11, 2011).
8
  The sample includes SEC’s operations center, headquarters and the regional offices.
Assessment of SEC’s System and Network Logs                                        March 16, 2012
Report No. 500
                                      Page 1
                              REDACTED PUBLIC VERSION
4, 2010 through June 20, 2011, with the system and network logs OIT collected
and provided to OIG on February 2, 2011, a review of segregated duties among
OIT staff who access SEC enterprise network logs, access controls to logs,
controls over log management and analysis, log collection, and log storage.

Objectives
The overall objective of this review was to independently evaluate and report on
how the Commission has implemented information security requirements for
audit log management, including the generation, review, protection, and retention
of audit logs. An additional objective was to review system and network logs in
the SEC enterprise network, access controls to logs, controls over log
management and analysis, data log collection, and log storage.




Assessment of SEC’s System and Network Logs                       March 16, 2012
Report No. 500
                                 Page 2
                         REDACTED PUBLIC VERSION
                  Findings and Recommendations

Finding 1: Audit Log Events Are Not Being
Captured for All                   Servers
           Three of 56 servers in the judgmental sample did not log
           auditable events because the server’s logging capacity had
           been exceeded. There is no mechanism in place to alert
           OIT’s Servers and Storage Branch or OIT’s Security Branch
           when servers have reached their capacity and have stopped
           performing logging functions.

In connection with this review, C5i conducted a technical assessment of

          located in the SEC‘s enterprise network. In addition, C5i compared
SEC enterprise network logs, including systems and application logs, collected in
February 2011 to the logs that were collected in June 2011.

FIPS Publication 200, Minimum Security Requirements for Federal Information
and Information Systems (FIPS Publication 200), states that organizations must:

           (i) create, protect, and retain information system audit records to
           the extent needed to enable the monitoring, analysis, investigation,
           and reporting of unlawful, unauthorized, or inappropriate
           information system activity; and (ii) ensure that the actions of
           individual information system users can be uniquely traced to those
           users so they can be held accountable for their actions. 10

The OIT Server and Storage Branch provided C5i with a list of
          servers representing the various types of servers deployed across the
Commission’s enterprise network. From this list, C5i identified
      , 11               , 12               13
                                               and                      ,   for a

9
  The sample includes SEC’s operations center, headquarters and the regional offices.
10
   FIPS Publication 200, Minimum Security Requirements for Federal Information and Information Systems
(Mar. 9, 2006) p. 2.
11
   For the purpose of this report,


     For the purpose of this report,

     For the purpose of this report,

     For the purpose of this report,

Assessment of SEC’s System and Network Logs                                          March 16, 2012
Report No. 500
                                               Page 3
                                       REDACTED PUBLIC VERSION
total of      items. C5i selected a judgmental sample of      servers from these

                                            C5i reviewed the servers to assess
their log generation and retention, server log capacity, and log monitoring and
alerting.

C5i conducted an on-site assessment on Saturday, June 18, 2011, from 6:10
p.m. Eastern Daylight Time (EDT) to 2:15 a.m. EDT on Sunday, June 19, 2011,
and on Friday, June 24, 2011, from 10:37 p.m. EDT to 12:47 a.m. EDT on
Saturday, June 25, 2011. C5i manually logged onto each server using the
administrator-level credentials OIT provided for this assessment. This access
level was necessary to properly validate the configuration of event logging and
log information being captured.

Elimination of Servers from the Initial Judgmental Sample

C5i attempted to manually log onto each of the      servers identified in its sample
and discovered that some servers were not accessible. In three cases, the
servers were unresponsive, and in two cases, the server’s maximum allowable
number of connections had been reached. In addition, two of the servers that
C5i was able to access did not allow exporting of their server log configurations.
As a result, C5i reduced the number of servers in its judgmental sample
         Table 1 provides details on the seven servers that were removed from the
initial sample.

 Table 1. Servers Eliminated From Initial Judgmental Sample
     System        IP Address    Location     Type of     Date and           Results
                                              Server    Time of Last
                                                        Audit Entry
                                Atlanta                    6/18/2011     System could
                                Regional                   11:50 p.m.    not be
                                Office                                   reached.
                                New York                   6/18/2011     System could
                                Regional                   12:23 a.m.    not be
                                Office                                   reached.
                                Fort Worth                 6/18/2011     Maximum
                                Regional                   12:12 a.m.    allowable
                                Office                                   connections
                                                                         had been
                                                                         reached.




15
  See Figure 5.                                                   , Verified June 18, 2011,
Appendix IV.
Assessment of SEC’s System and Network Logs                             March 16, 2012
Report No. 500
                                  Page 4
                          REDACTED PUBLIC VERSION
      System          IP Address     Location     Type of       Date and           Results
                                                  Server      Time of Last
                                                              Audit Entry
                                     SEC                        6/18/2011       Maximum
                                     Operations                 12:33 a.m.      allowable
                                     Center                                     connections
                                                                                had been
                                                                                reached.
                                     Chicago                    6/19/2011       Server log
                                     Regional                   1:26 a.m.       configuration
                                     Office                                     could not be
                                                                                exported.
                                     San                        6/18/2011       Server log
                                     Francisco                  1:43 a.m.       configuration
                                     Regional                                   could not be
                                     Office                                     exported.
                                     Salt Lake                  6/18/2011       System could
                                     Regional                   1:16 a.m.       not be
                                     Office                                     reached.
Source: OIG-generated

Of the    servers that were accessible
                    C5i found that                               and
           did not capture logs because the logs were full. In these cases, C5i
received the following warning message: “The security log on the system is full.”
As shown in Table 2, C5i found that logs for one of the servers had not been
captured for nine days.

Table 2. Sampled Servers Not Capturing Logs
     System        IP Address       Location       Server         Date and        No. of Days
                                                    Type        Time of Last       Without
                                                                Audit Entry        Logging
                                                                                   (Prior to
                                                                                  6/18/2011)
                                 SEC Operations                 6/15/2011              3
                                 Center                         4:57:43 p.m.

                                 SEC Alternate                  6/9/2011                9
                                 Data Center                    5:55:37 p.m.

 Source: OIG-generated

C5i found that all of the print servers and domain controllers in its 40-server
sample were performing audit logging functions and generating audit records for
the list of audited events.


16
   See Figure 6.                                                         Verified June 18, 2011,
Appendix IV.
17
   See Figure 4.                                            Verified June 18, 2011, Appendix IV.
18
   See Figure 2,                                             Verified June 18, 2011, Appendix IV.
Assessment of SEC’s System and Network Logs                                    March 16, 2012
Report No. 500
                                        Page 5
                                REDACTED PUBLIC VERSION
Log Comparison

C5i compared server logs the OIG collected in February 2011 with the server
logs that were captured in June 2011. From the list of    servers provided by
the OIT Servers and Storage Branch, C5i selected the following 18 additional
server types in the




C5i found that             additional servers were not accessible. In one case,
C5i found that the system could not be reached; in the other case, C5i was
unable to access Audit Policy in the server log configuration. Table 3 provides
details on the two eliminated servers.

Table 3. Servers Eliminated From Additional Judgmental Sample Used
in Log Comparison
  System      IP Address    Location      Type of     Date and        Results
                                          Server    Time of Last
                                                    Audit Entry
         -                 SEC                      6/18/2011      Not able to
                           Alternate                10:45 p.m.     access Audit
                           Data Center                             Policy
                           SEC                      6/18/2011      System cannot
                           Alternate                11:50 p.m.     be reached
                           Data Center
Source: OIG-generated

C5i also found that one of the accessible servers was not performing audit
logging functions for at least one day, as shown in Table 4, because its log were
full.




Assessment of SEC’s System and Network Logs                         March 16, 2012
Report No. 500
                                   Page 6
                           REDACTED PUBLIC VERSION
     Table 4. Server From Additional Judgmental Sample Not Performing
     Logging Functions
      System       IP Address        Location       Type of Server           Date and          Number of
                                                                           Time of Last           Days
                                                                           Audit Entry          without
                                                                                                Logging
                                                                                                (Prior to
                                                                                               6/16/2011)
                                        SEC                                  6/17/2011          At least 1
                                      Alternate                             5:38:12 a.m.           day
                                        Data
                                       Center
     Source: OIG-generated

In summary, C5i found that          accessible servers in its judgmental sample
(consisting of                        servers and     other servers) had been
operating without audit log functions for as long as 9 days. 20

Log Generation and Retention

C5i found that for most of the SEC servers in its sample, OIT Servers and
Storage Branch generates and retains audit logs. C5i found that OIT Servers
and Storage Branch has implemented two automated computer scripts to
manage and archive log data. 21 The first script, which runs every day at
     ; copies the daily audit logs on each server to a temporary storage folder. A
second automated computer script, which runs every Monday at
moves the daily audit logs from the temporary storage folder to a centralized log
server for retention and archival purposes. OIT Security Branch extracts the logs
from the storage folders that are managed by OIT Servers and Storage Branch
and analyzes the data using the                  The three servers that C5i
previously identified as having exceeded their log capacity and were not
generating logs, were subject to this log extraction and analysis process.

C5i contacted OIT Security Branch to confirm that the three servers were not
generating security logs on Saturday, June 18, 2011, from 10:00 p.m. to 11:59
p.m. EDT, when C5i performed its onsite assessment. OIT Security confirmed
that logs did not exist for that date and time and provided C5i with a screen shot
from           showing the result. 22



19
   See Figure 3.
20
   The audit log function produces audit records that contain sufficient information to establish the type of
logged event that has occurred, when (date and time) the event occurred, where (IP Address) the event
occurred, the source of the event, the outcome (success or failure) of the event, and the identity of any user
or subject associated with the event.
21
   A script is a program or sequence of instructions that is carried out by a computer without user interaction.
22
   See Figure 1,                                                                         October 17, 2011,
Appendix IV.
Assessment of SEC’s System and Network Logs                                                 March 16, 2012
Report No. 500
                                         Page 7
                                 REDACTED PUBLIC VERSION
Server Log Capacity

NIST SP 800-53 recommends that an organization allocate audit record storage
capacity and configure auditing “to reduce the likelihood of such capacity being
exceeded.”23

As noted above, C5i found three servers for which logs were not being generated
because log capacity had been reached. C5i manually compared the servers log
configuration settings with the
configuration. 24 Using the list of                            configuration
provided by OIT Servers and Storage Branch, C5i confirmed that at the server
level, the configuration settings were implemented according to the
settings as defined by OIT.

C5i determined that a maximum log capacity of                      had been
configured and implemented across the Commission’s network by a
                                 C5i also found that a log setting, “Do Not
overwrite events (clear log manually)” had been configured on servers to prevent
overwriting of previously generated logs. Once a log reached capacity, any
future logging will not be captured unless and until the OIT Servers and Storage
Branch performs a manual check and clears or moves the last-created logs to
free up capacity for additional logging.

Monitoring and Alerting

In addition to the requirement that organizations create, protect, and retain
information system audit records, 25 NIST SP 800-53 recommends that
information systems alert designated organization officials in the event of an
audit processing failure, such as audit storage capacity being reached or
exceeded. 26

C5i interviewed staff from OIT’s Servers and Storage Branch and OIT’s Security
Branch to determine whether they were aware of the impaired logging issues and
whether an alerting mechanism was in place to notify them if a server stops
performing logging functions. OIT Servers and Storage Branch informed C5i that
it was not actively monitoring the logs and did not have an alerting mechanism in
place to receive notifications when a server stops performing required logging
functions. C5i also found that although the OIT Security Branch monitors logs
using           , there is no mechanism in place to notify it when a server has
stopped performing required logging functions. Because neither the OIT Servers
and Storage Branch, nor the OIT Security Branch has an alerting mechanism in

23
     NIST SP 800-53, Rev. 3, p. F-25.
24
                                        controls what users can and cannot do on a computer system.
25
   FIPS Publication 200, p. 2.
26
   NIST SP 800-53, Rev. 3, p. F-26.
Assessment of SEC’s System and Network Logs                                         March 16, 2012
Report No. 500
                                          Page 8
                                  REDACTED PUBLIC VERSION
place, logging failures could go unnoticed indefinitely until a manual check is
performed. C5i discovered that OIT staff first identified this issue in June 2009
and notified both OIT’s Service Desk and Customer Care at that time as well as
on several occasions thereafter, but to date the problem has not been resolved.

Since the OIT Servers and Storage Branch does not actively monitor logs and
does not have an automated alerting mechanism in place to receive notifications
when a server stops performing logging functions, OIT may be unaware of audit
processing failures for extended periods of time. As a result, OIT’s ability to
analyze and investigate inappropriate information system activity and ensure that
the actions of individual information system users can be traced to those users
could be hindered.

The failure to ensure that servers are performing logging functions is inconsistent
with FIPS Publication 200 and prevents OIT from actively monitoring, analyzing,
investigating, and reporting unlawful, unauthorized, or inappropriate information
system activity and from capturing sufficient information to trace back and hold
users accountable for their actions on the servers. 27

Overall, OIT lacks thorough processes and procedures for ensuring consistent,
uninterrupted server logging functions. In particular, OIT lacks adequate capacity
planning for server logs and an alerting mechanism for notifying appropriate
officials when audit logging functions are suspended because of inadequate
capacity or other reasons.

           Recommendation 1:

           The Office of Information Technology should identify capacity
           requirements for all servers, ensure sufficient capacity is available for the
           storage of audit records, configure auditing to reduce the likelihood that
           capacity will be exceeded, and implement an alerting mechanism to alert
           and notify appropriate Commission office/divisions when log storage
           capacity is reached.

           Management Comments. OIT concurred with this recommendation.
           See Appendix VI for management’s full comments.

           OIG Analysis. We are pleased that OIT concurred with this
           recommendation.




27
     FIPS Publication 200, p. 2.
Assessment of SEC’s System and Network Logs                               March 16, 2012
Report No. 500
                                           Page 9
                                   REDACTED PUBLIC VERSION
Finding 2: OIT Audit Logging Policies and
Procedures for SEC Network Servers Should be
Revised and Reviewed According to Its Current
Policy
           OIT policies and procedures for audit log capture and
           management are outdated and do not clearly define roles
           and responsibilities. As a result, OIT’s effectiveness at
           maintaining network security and the critical data that is
           processed and stored may be hindered.

OIT provided C5i with the following five policies and procedures pertaining to
audit log capture and management for the SEC’s enterprise network servers:

       •   Operating Directive (OD)

       •   SEC Regulation (SECR)

       •   Implementing Instruction

       •   Implementing Instruction

       •   Operating Procedure (OP)


NIST SP 800-53, Recommended Security Controls for Federal Information
Systems and Organizations, recommends that organizations develop,
disseminate, and review/update, with a frequency defined by the organization,
the following:

           a. A formal, documented security planning policy that addresses
              purpose, scope, roles, responsibilities, management
              commitment, coordination among organizational entities, and
              compliance; and

           b. Formal, documented procedures to facilitate the implementation
              of the security planning policy and associated security planning
              controls. 28

C5i reviewed OIT’s documented policies and procedures pertaining to audit log
capture and management to determine whether the polices

28
     NIST SP 800-53, Rev. 3, p. F-3.
Assessment of SEC’s System and Network Logs                            March 16, 2012
Report No. 500
                                          Page 10
                                  REDACTED PUBLIC VERSION
     •    had been reviewed in accordance with the frequency specified,
     •    clearly defined roles and responsibilities,
     •    contained provisions for segregation of duties among OIT staff
          accessing the SEC enterprise network,
     •    included controls for accessing logs,
     •    provided for management and analysis of logs,
     •    called for collection of adequate data, and
     •    provided for sufficient log storage capability.

C5i found that only                 appeared to be current, while the other four
policies, all of which cited an “anticipated review date” of one year from their
approval date, have not been reviewed or updated based on the effective
date(s).

C5i’s review of OIT’s policies and procedures related to application database log
management confirmed that OIT does not have documented policies and
procedures for application database log management. In addition, C5i found that
OIT has not defined the roles and responsibilities of individuals who are expected
to be involved in log management, as recommended by NIST SP 800-92, which
states that “[a]s part of the log management planning process, an organization
should define the roles and responsibilities of individuals and teams who are
expected to be involved in log management.”29

Further, C5i found that OIT does not have policies and procedures requiring the
review of server logs to ensure that log capacity has not been exceeded or for
alerting and notify appropriate officials when audit logging functions are
suspended due to log storage capacity being reached. 30

Consistent with the OIG’s 2011 Annual FISMA Executive Summary Report, OIT
has recently dedicated resources to review and update its policies and
procedures to ensure they are consistent with OIT’s current business practices.
In addition, OIT informed C5i of its deployment of a new automated tool, Qualys,
which provides on-demand vulnerability management and compliance solutions.
Among other things, Qualys automates security audits to help ensure that the
organization is in compliance with applicable regulations and internal security
policies.


29
  NIST SP 800-92, p. 4-10.
30
  C5i’s current finding that OIT policies are outdated and nonexistent is similar to Finding 1 in the OIG report
2011 Annual FISMA Executive Summary, issued February 2, 2012. The report found that the policies and
procedures specific to the eight Federal Information Security Management Act control areas reviewed were
outdated and nonexistent. However, this report did not include a review of OIT’s policies and procedures
pertaining to the capture of audit logs, log management, or management of the SEC’s enterprise network
servers. Additionally, in response to recommendation 6 in OIG report Assessment of SEC’s Continuous
Monitoring Program, issued August 11, 2011, OIT agreed that its policies and procedures need to be
updated to reflect its desired log management practices and separation of duties needs to be documented.
Assessment of SEC’s System and Network Logs                                                March 16, 2012
Report No. 500
                                         Page 11
                                 REDACTED PUBLIC VERSION
Because OIT did not review and update policies and procedures pertaining to
audit log capture and management at prescribed intervals and did not provide
clearly defined roles and responsibilities for audit log functions, OIT’s ability to
effectively maintain network security and protect critical data may be limited.

       Recommendation 2:

       When updating its policies and procedures, the Office of Information
       Technology (OIT) should include log management language that

           •   identifies the roles and responsibilities of staff who are involved in
               log management,
           •   requires server logs to be periodically reviewed to check whether
               log capacity has been exceeded, and
           •   requires appropriate OIT officials be notified when audit logging
               functions are suspended when log storage capacity has reached its
               limit.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VI for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.

       Recommendation 3:

       The Office of Information Technology should review and update all logging
       policies and procedures consistent with the policy’s review interval
       requirements and retain evidence of its reviews and any updates to the
       policy.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VI for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.




Assessment of SEC’s System and Network Logs                             March 16, 2012
Report No. 500
                                  Page 12
                          REDACTED PUBLIC VERSION
Finding 3: Decommissioned Servers Remain
Active on the SEC Network
        Decommissioned servers remained accessible on the SEC
        network and, of those examined, one was not capturing logs.
        In addition, OIT’s Server Decommission Guidelines should
        include a checklist to ensure that all required
        decommissioning activities are implemented.

From the                          servers in our sample, we identified
decommissioned servers. All       of the decommissioned servers were file
servers. C5i then examined a judgmental sample of               decommissioned
file servers to determine whether OIT had executed the required actions related
to risk management for systems removed from operation, as specified in NIST
SP 800-37, Guide for Applying the Risk Management Framework to Federal
Information Systems, including updating organizational tracking and
management systems to indicate the specific information system components
being removed from service. 31

C5i found that the four decommissioned servers in our sample were still actively
connected to SEC’s enterprise network and were accessible. Further, C5i found
that one of the servers had stopped performing audit logging functions.
Therefore, any activity on that server was not being recorded, which is not
consistent to FIPS Publication 200, which states that organizations must “ensure
that the actions of individual information system users can be uniquely traced to
those users so they can be held accountable for their actions.” 32 Maintaining
active logging-disabled servers on the SEC enterprise network could lead to
undetected security breaches and data compromise because OIT cannot actively
monitor, analyze, investigate, or report unlawful, unauthorized, or inappropriate
activity on such servers.

C5i reviewed OIT Servers and Storage Branch’s Server Decommission
Guidelines. The guideline pertains to the procedure for decommissioning
servers, to determine whether OIT had implemented an information system
decommissioning strategy that “executes required actions when a system is
removed from service,” as called for in NIST SP 800-37, including ensuring that
“all security controls addressing information system removal and
decommissioning (e.g., media sanitization, configuration management and
control) are implemented.” 33 Our review found that OIT’s Server Decommission
Guidelines do not include a documented decommissioning strategy, such as a

31
   NIST SP 800-37, Guide for Applying the Risk Management Framework to Federal Information Systems,
Rev. 1 (February 2010), p. 41.
32
   FIPS 200, p. 2.
33
   NIST SP 800-37, Rev. 1, p. 41.
Assessment of SEC’s System and Network Logs                                        March 16, 2012
Report No. 500
                                      Page 13
                              REDACTED PUBLIC VERSION
checklist that clearly documents each action that should be performed when a
server is removed from service. Without a fully documented decommissioning
strategy that includes a checklist, OIT cannot readily ensure that all security
controls for decommissioning have been consistently implemented.

       Recommendation 4:

       The Office of Information Technology should ensure that all servers
       connected to the Commission’s enterprise network are configured to have
       logging enabled.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VII for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.

       Recommendation 5:

       The Office of Information Technology (OIT) should update its Server
       Decommission Guidelines and include language to fully document each
       action that should be performed when decommissioning a server. OIT
       should also develop a server decommissioning checklist to be included in
       the Server Decommission Guidelines.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VI for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.




Assessment of SEC’s System and Network Logs                        March 16, 2012
Report No. 500
                                 Page 14
                         REDACTED PUBLIC VERSION
Finding 4: Application Database Logs Are Not
Generated
           OIT’s application database logs are not being generated for
           auditable events.

According to NIST SP 800-53, information systems should provide audit record
generation capability for the list of auditable events, allow designated personnel
to select which auditable events are to be audited by specific components of the
system, and generate audit records for the list of audited events. 34

OIT staff informed C5i that the events captured in application database logs are
inconsistent because native database logging—the audit trail functionality built
into a database management system—has not been turned on for most database
applications. As a result, not all auditable events are captured. In addition, OIT
did not identify and select auditable events to be audited for the application
database servers. Most database administrators and system owners developed
their own audit logging functionality and disabled native database logging
because it was resource-intensive and impeded the applications’ ability to
perform optimally. As a result, OIT is unable to generate audit records for all
auditable events. Without native database application logging or secondary
systems that provide the same level of detail, OIT is unable to retain audit
records to provide support for investigations of security incidents and to meet
regulatory and organizational information retention requirements. 35

OIT is aware of the issues surrounding application database logging and has
designated a staff member to specifically focus on addressing these issues.

           Recommendation 6:

           The Office of Information Technology (OIT) should conduct a review of
           application database log management and generation procedures to
           ensure auditable events are being captured and retained, consistent with
           OIT policies and procedures and National Institute of Standards and
           Technology guidelines.

           Management Comments. OIT concurred with this recommendation.
           See Appendix VI for management’s full comments.

           OIG Analysis. We are pleased that OIT concurred with this
           recommendation.

34
     NIST SP 800-53, Rev. 3, p. F-30.
35
     NIST SP 800-53, Rev. 3, p. F-30.
Assessment of SEC’s System and Network Logs                           March 16, 2012
Report No. 500
                                          Page 15
                                  REDACTED PUBLIC VERSION
Finding 5: OIT Does Not Have a Monitoring and
Alerting Mechanism for                   Failure
           There is no monitoring and alerting mechanism in place to
           notify OIT’s Servers and Storage Branch or the OIT Security
           Branch if a                       stops performing
           functions.

        is a standard for logging computer data in a
        files contain event information, including panic conditions, data
corruption, hardware errors, warnings, and tracking information.          files can
be used for computer system management, security events, auditing events,
system information analysis, and debugging messages. According to NIST SP
800-53, a control should be in place that “[a]lerts designated organization officials
in the event of an audit processing failure.” 37

C5i conducted an assessment to review data log collection and controls over log
management and analysis and to ensure that log storage is being performed
consistently within OIT’s                         . C5i’s interviews with staff in
OIT’s Servers and Storage Branch and the OIT Security Branch, found that
neither Branch has an alerting mechanism in place to notify it if a
server stops performing           functions. The OIT Servers and Storage Branch
and the OIT Security Branch also informed C5i that OIT is in the process of
replacing an information system tool called                            As part of its
deployment of          , the OIT Security Branch plans to develop a computer
script that would assess each server to determine if the server is producing
         and if the configuration on each server is correct.

If a server stops performing logging functions the activity on that server will not
be recorded, compromising the organization’s ability to manage the computer
system, detect and address security events, establish an audit trail of events,
analyze or investigate events, or protect against individuals falsely denying
having performed particular actions.




36
     A Panic condition is an emergency level of a problem in     – e.g., warning, error, emergency.
37
     NIST SP 800-53, Rev. 3, AU-5, Response to Audit Processing Failures, p. F-26.
Assessment of SEC’s System and Network Logs                                             March 16, 2012
Report No. 500
                                          Page 16
                                  REDACTED PUBLIC VERSION
       Recommendation 7:

       The Office of Information Technology (OIT) should implement a
       mechanism to notify OIT’s Servers and Storage Branch, or OIT’s Security
       Branch when                          performing        functions.

       Management Comments. OIT concurred with this recommendation.
       See Appendix VI for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.

       Recommendation 8:

       The Office of Information Technology should implement its plan to develop
       a computer script that determines whether                    are
       producing

       Management Comments. OIT concurred with this recommendation.
       See Appendix VI for management’s full comments.

       OIG Analysis. We are pleased that OIT concurred with this
       recommendation.




Assessment of SEC’s System and Network Logs                      March 16, 2012
Report No. 500
                                 Page 17
                         REDACTED PUBLIC VERSION
                                                                   Appendix I


                               Abbreviations

          EDT            Eastern Daylight Time
          FIPS           Federal Information Processing Standard
          FISMA          Federal Information Security Management Act

          NIST           National Institute of Standards and
                         Technology
          OD             Operating Directive
          OIG            Office of Inspector General
          OIT            Office of Information Technology
          OMB            Office of Management and Budget
          OP             Operating Procedure
          SEC or
          Commission U.S. Securities and Exchange Commission
          SECR       SEC Regulation
          SP         Special Publications




Assessment of SEC’s System and Network Logs                     March 16, 2012
Report No. 500
                                 Page 18
                         REDACTED PUBLIC VERSION
                                                                                          Appendix II


                           Scope and Methodology

The full version of this report includes information that the SEC considers to be
sensitive and proprietary. To create this public version of the report, OIG
redacted (blacked out) potentially sensitive, proprietary information from the
report.

Scope. The assessment covered the period from January 2010 to August 2011.
The review consisted of detailed technical assessment samplings of
                                                           located within the
SEC’s enterprise network located at the SEC’s operations center, headquarters
and regional offices. Further, the assessment included a comparison and
analysis of audit log records, obtained on an external hard drive, from all OIT
                                                                       that were
generated between January 4, 2010, and October 23, 2010, with audit log
records generated by the same servers                            between January
29, 2011, and June 23, 2011, to identify changes in controls and logging
requirements. The log analysis included determining whether the servers were
performing audit logging functions; determining whether critical auditable security
event types were being logged, including: privilege escalation attempts,
password guessing attempts, user session activity, changes to user permissions
and user accounts, log-in/out, modifications to information systems or application
software, and system startup/shutdown; and comparing the actual logs with the
                                            audit logging settings for consistency.

Methodology. To meet the overall objectives to assess the various types of
servers deployed at the Commission and located within the enterprise network,
C5i conducted interviews with key personnel, made independent observations,
and examined documentation provided by SEC officials. Key personnel included
system owners, business line managers, OIT representatives, and OIG
personnel. These interviews were further held to determine issues that were
relevant to completing this assessment. C5i reviewed pertinent data log records
and supporting documentation (policies, procedures, roles and responsibilities) to
address the review objectives. C5i’s review of policies and procedures also
included discussions with SEC officials and covered the areas identified in the
scope.

In addition, C5i obtained a detailed list of                    servers
representing the various types of servers deployed at the Commission and
located within the enterprise network. The assessment consisted of reviewing a
judgmental sample of

38
 The data was collected by OIT and saved on to the hard drive. OIT certified that the data was not
modified or manipulated.
Assessment of SEC’s System and Network Logs                                              March 16, 2012
Report No. 500
                                        Page 19
                                REDACTED PUBLIC VERSION
                                                                        Appendix II


            located within the network, including regional offices. Further, the
assessment reviewed logs on all servers                          for segregation of
duties among OIT staff accessing SEC enterprise network logs, access controls
to those logs, controls over log management and analysis, log data collection,
and log storage. Also, the assessment included a comparison and analysis of
audit log records to identify changes in controls and logging requirements and to
determine whether the servers were performing audit logging functions;
determine whether critical auditable security event types were being logged,
including privilege escalation attempts, password guessing attempts, user
session activity, changes to user permissions and user accounts, log-in/out,
modifications to information systems or application software, and system
startup/shutdown; and comparing the actual logs with           audit logging settings
for consistency.

C5i used the guidance from NIST 800-53; other NIST, OMB, and FISMA
guidance; and industry best practices in its evaluation and to support its
conclusions and recommendations.

Management Controls. Consistent with the objectives of the review, C5i did not
assess OIT’s management control structure or its internal controls. C5i
evaluated existing controls at the Commission specific to the assessment as
noted in the discussion of scope. C5i relied on information requested and
supplied by OIT and interviews with OIT personnel to understand OIT’s
management controls pertaining to policies, roles and responsibilities, and
procedures.

User of Computer-Processed Data. C5i reviewed the following computer-
processed data (i.e., system logs and network logs) that OIT staff members
provided to us:

   •   system and network Logs,
   •   event log automation script procedure,
   •   screenshots of             security log settings,
   •   log migration scripts, and
   •   list of                          settings.

C5i believes that the information that was retrieved from the SEC’s systems, as
well as the requested network logs and documents provided to us, was sufficient,
reliable, and adequate to use in meeting our stated objectives.

C5i assessed the reliability of OIT’s computer configuration settings as it
pertained to our review of log generation, log capture, log management and
storage.



Assessment of SEC’s System and Network Logs                           March 16, 2012
Report No. 500
                                  Page 20
                          REDACTED PUBLIC VERSION
                                                                      Appendix II


Prior OIG Coverage.

   •   OIG Report No. 501, 2011 Annual FISMA Executive Summary
       Report, February 2, 2012, contained 13 recommendations to
       strengthen the SEC’s controls over information security. All of the
       report’s recommendations are open.
   •   OIG Report No. 489, 2010 Annual FISMA Executive Summary
       Report, March 3, 2011, contained eight recommendations to
       strengthen the Commission’s security posture. All of the report’s
       recommendations are closed, with the exception of
       recommendation 5, which pertains to the logical access integration
       of the HSPD-12 card.

   •   OIG Report No. 476, Evaluation of the SEC Encryption Program,
       March 26, 2010, contained three recommendations to strengthen IT
       management controls for safeguarding the Commission’s
       information. All of the report’s recommendations are closed.

   •   OIG Report No. 497, Assessment of SEC’s Continuous Monitoring
       Program, August 11, 2011, contained 13 recommendations to
       strengthen the Commission’s security posture. All of the report’s
       recommendations remain open.

Judgmental Sampling. C5i obtained from OIT a detailed list of
                   representing the various types of servers deployed at the
Commission and located within the enterprise network. From the list of       , C5i
identified a judgmental sample of      servers consisting of
                                                     located within the SEC’s
enterprise network, including regional offices. C5i further targeted a population
of    servers, of which    were accessible      percent of the total sampled
servers). The servers were reviewed onsite at the SEC Operations Center in
                    , on June 18, 2011 and June 24, 2011.




Assessment of SEC’s System and Network Logs                         March 16, 2012
Report No. 500
                                 Page 21
                         REDACTED PUBLIC VERSION
                                                                         Appendix III


                                        Criteria

   Federal Information Security Management Act of 2002, Title III, Pub. L. No.
   107-347. Requires federal agencies to develop, document, and implement an
   agency wide program providing security for the information and information
   systems that support the operations and assets of the agency, including those
   provided or managed by another agency, contractor, or other source.

   NIST SP 800-37, Guide for Applying the Risk Management Framework to
   Federal Information Systems, Revision 1, February 2010. Provides guidance
   for applying the Risk Management Framework to federal information systems.

   NIST SP 800-53, Recommended Security Controls for Federal Information
   Systems and Organizations, May 1, 2010. Provides guidelines for selecting and
   specifying security controls for information systems supporting the executive
   agencies of the federal government.

   NIST SP 800-92, Guide to Computer Security Log Management, September
   2006. Provides guidance on the generation, review, and retention of computer
   logs and log data.

   Federal Information Processing Standard Publication 200 (FIPS 200),
   Minimum Security Requirements for Federal Information and Information
   Systems, March 2006. Outlines the minimum security requirements for the
   security of federal information systems.




Assessment of SEC’s System and Network Logs                     March 16, 2012
Report No. 500
                                     Page 22
                             REDACTED PUBLIC VERSION
                                                    Appendix IV


                                Screenshots

Figure 1.




Source: OIG-generated

Figure 2.




Source: OIG-generated




Assessment of SEC’s System and Network Logs        March 16, 2012
Report No. 500
                                 Page 23
                         REDACTED PUBLIC VERSION
                                                    Appendix IV


Figure 3.                                           Verified
June 18, 2011




Source: OIG-generated




Assessment of SEC’s System and Network Logs        March 16, 2012
Report No. 500
                                 Page 24
                         REDACTED PUBLIC VERSION
                                                     Appendix IV


Figure 4.                                          Verified June
18, 2011




Source: OIG-generated




Assessment of SEC’s System and Network Logs        March 16, 2012
Report No. 500
                                 Page 25
                         REDACTED PUBLIC VERSION
                                                    Appendix IV


Figure 5.
Verified June 18, 2011




Source: OIG-generated




Assessment of SEC’s System and Network Logs        March 16, 2012
Report No. 500
                                 Page 26
                         REDACTED PUBLIC VERSION
                                                    Appendix IV


Figure 6.                                                      ,
Verified June 18, 2011




Source: OIG-generated




Assessment of SEC’s System and Network Logs        March 16, 2012
Report No. 500
                                 Page 27
                         REDACTED PUBLIC VERSION
                                                                       Appendix V


                     List of Recommendations

Recommendation 1:

The Office of Information Technology should identify capacity requirements for all
servers, ensure sufficient capacity is available for the storage of audit records,
configure auditing to reduce the likelihood that capacity will be exceeded, and
implement an alerting mechanism to alert and notify appropriate Commission
office/divisions when log storage capacity is reached.

Recommendation 2:

When updating its policies and procedures, the Office of Information Technology
(OIT) should include log management language that

   •   identifies the roles and responsibilities of staff who are involved in
       log management,
   •   requires server logs to be periodically reviewed to check whether
       log capacity has been exceeded, and
   •   requires appropriate OIT officials be notified when audit logging
       functions are suspended when log storage capacity has reached its
       limit.

Recommendation 3:

The Office of Information Technology should review and update all logging
policies and procedures consistent with the policy’s review interval requirements
and retain evidence of its reviews and any updates to the policy.

Recommendation 4:

The Office of Information Technology should ensure that all servers connected to
the Commission’s enterprise network are configured to have logging enabled.

Recommendation 5:

The Office of Information Technology (OIT) should update its Server
Decommission Guidelines and include language to fully document each action
that should be performed when decommissioning a server. OIT should also
develop a server decommissioning checklist to be included in the Server
Decommission Guidelines.



Assessment of SEC’s System and Network Logs                          March 16, 2012
Report No. 500
                                 Page 28
                         REDACTED PUBLIC VERSION
                                                                   Appendix V


Recommendation 6:

The Office of Information Technology (OIT) should conduct a review of
application database log management and generation procedures to ensure
auditable events are being captured and retained, consistent with OIT policies
and procedures and National Institute of Standards and Technology guidelines.

Recommendation 7:

The Office of Information Technology (OIT) should implement a mechanism to
notify OIT’s Servers and Storage Branch, or OIT’s Security Branch when
                    stop performing       functions.

Recommendation 8:

The Office of Information Technology should implement its plan to develop a
computer script that determines whether                    are producing




Assessment of SEC’s System and Network Logs                      March 16, 2012
Report No. 500
                                 Page 29
                         REDACTED PUBLIC VERSION
                                                                                Appendix VI


                        Management’s Comments



                                      MEMORANDUM




                                                                                                  ~
TO:            Jacqueline Wilson, Assistant Inspector General for Audits, Office of
               Inspector General (DIG)


FROM:          Thomas A. Bayer, Director, Office of Information Technology      (01;1\ lJv6VVJ-
                                                                                          ..




RE:            Assessment of SEC's System and Network Logs, Report No. 500


DATE:          March 15, 2012


This memorandum is in response to the Office of Inspector General's (DIG) Draft
Report No, 500 entitled, Assessment of SEC's System and Network Logs.            Thank you
for the opportunity to review and respond to this report.


DIG Recommendation 1:


OIT should identify capacity requirements for all servers, ensure sufficient capacity is
available for the storage of audit records, configure auditing to reduce the likelihood that
capacity will be exceeded, and implement an alerting mechanism to alert and notify
appropriate office/divisions when log storage capacity is reached.


CIT concurs with this recommendation. OIT wilf use existing system monitoring tools to
explicitly alert on log size approaching and/or reaching capacity.

DIG Recommendation 2:


When updating its policies and procedures, the Office of Information Technology (OIT)
should include log management language that
        identifies the roles and responsibilities of staff who are involved in log
        management,
        requires server logs to be periodically reviewed to check whether log capacity
        has been exceeded, and
        requires appropriate OIT officials be notified when audit logging functions are
      suspended when log storage capacity has reached its limit.


OIT concurs with this recommendation. OIT will revise their log management policy to
take into account the recommended language. OIT is currently reviewing and updating
their logging policies and procedures as part of an IT policy review project.


OIG Recommendation 3:


The Office of Information Technology should review and update ali logging policies and
procedures consistent with the policy's review interval requirements and retain evidence
of its reviews and any updates to the policy.




 Assessment of SEC’s System and Network Logs                                   March 16, 2012
 Report No. 500
                                      Page 30
                              REDACTED PUBLIC VERSION
                                                                               Appendix VI




OIT concur.s with this recommendation. OIT is currently reviewing and updating their
logging policies and PT.0cedures as part of an IT policy review project.

O.G Recommendation 4:


The Office of Information Technology should ensure that all servers connected to the
Commission's enterprise network are configured to have logging enabled.


OIT concurs with this recommendation. OIT is currently reviewing and updating their
logging policies and procedures as part of an IT policy review project. Included in this
will be language to define what types of hosts most or should perform logging, as per
N/ST Special Publication (SP) 800-92, section 4.2.

OIG Recommendation 5:


The Office of Information Technology (OIT) should update its Server Decommission
Guidelines and include language to fully document each action that should be
performed when decommissioning a server. OIT should also develop a server
decommissioning checklist to be included In the Server Decommission Guidelines.


OIT concurs with this recommendation. OIT is currently reviewing and updating their
policies, procedures and guidelines as part of an IT policy review project.


OIG Recommendation 6:


The Office of Information Technology (OIT) should conduct a review of application
database log management and generation procedures to ensure auditable events are
being captured and retained, consistent with OIT policies and procedures and National
Institute of Standards and Technology guidelines.


OIT concurs with this recommendation. OIT is currently reviewing and updating their
policies, procedures and guidelines as pa rt of an IT policy review project.



OIG Recommendation 7:


The Office of Information Technology"(OIT) should implement a me     �
OIT's Servers and Storage Branch, or OIT's Security Branch when      ____
stop performing   _ functions.
OIT conc �mmendation. OIT will leverage existing tools to monitor the
status of�ocesses and alert the appropriate personnel if the process
terminates.

O'G Recommendation 8:




 Assessment of SEC’s System and Network Logs                               March 16, 2012
 Report No. 500
                                    Page 31
                            REDACTED PUBLIC VERSION
                                                                              Appendix VI




The Office of Information                                  its plan   � computer
script that determines wtle'lh"d                         producing    __
OfT                        "'   ��:!���� n; OIT will leverage existing tools to monitor the
                           I�
                            I        ,     and determine if logging is actively occurring or




 Assessment of SEC’s System and Network Logs                                March 16, 2012
 Report No. 500
                                   Page 32
                           REDACTED PUBLIC VERSION
                                                                Appendix VII


     OIG Response to Management’s Comments

We are pleased that OIT concurred with the report’s eight recommendations. We
are also encouraged that OIT has indicated that they will initiate actions to
address the findings described in the report. We believe that OIT’s proposed
actions are responsive to the report’s findings and recommendations and their
implementation of the recommendations will further aid in strengthening OIT’s
controls over the SEC’s system and network logs.




Assessment of SEC’s System and Network Logs                   March 16, 2012
Report No. 500
                                 Page 33
                         REDACTED PUBLIC VERSION
                     Audit Requests and Ideas
The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Telephone: 202-551-6061
Fax:       202-772-9265
E-mail:    oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at the SEC,
      contact the Office of Inspector General at

      Telephone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
